No. 20-_________
_________________________________________________

IN THE
SUPREME COURT OF THE UNITED STATES
_________________________________________________
Shelby L. Haynes, N. Gerald DiCuccio
and Butler, Cincione & DiCuccio,
Petitioners,
vs.
Central States Southeast and Southwest
Areas Health And Welfare Fund, et al.
Respondent.
_________________________________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Seventh Circuit
_________________________________________________
PETITION FOR WRIT OF CERTIORARI
_________________________________________________
John A. Yaklevich, Esq.
(Ohio Sup. Ct. No. 0025588)
Moore & Yaklevich
33 South Grant Avenue
Columbus, Ohio 43215
(614) 241-2156
Fax: (614) 241-5909
jayyaklevich@gmail.com

I.

Questions Presented For Review
1. Can an ERISA plan fiduciary assert equitable
lien by agreement claims against persons with
which it has no agreement?
2. Can the undisclosed conditions subsequent of
an ERISA plan be applied retroactively against
individuals with whom the ERISA plan
administrator has no agreement?
3. Where a summary plan description omits an
ERISA plan’s common fund-negating language,
under what circumstances does the common
fund rule operate?

ii

II.

Corporate Affiliation
Pursuant to Rule 29.6 of this Court’s Rules,

petitioners state that they have no parent
corporation(s) and no shareholders. No publicly held
corporation owns any stock in any petitioner.

iii

III.

Table of Contents
I.

Questions Presented For Review …..... ii

II.

Corporate Affiliation ……………….…. iii

III.

Table of Contents …………………….… iv

IV.

Table of Cases ……….…………………... v

V.

Petition for Writ of Certiorari .………... 1

VI.

Opinions Below ……..………………...… 1

VII.

Jurisdiction ….………………………...… 1

VIII. Constitutional Provisions and
Statutes Involved ……………………….. 1
IX.

Statement Of The Case ...…………….... 2
A. Facts Material To The
Questions Presented ………….... 3
B. Lower Court
Proceedings ……..…………….…. 5

X.

Reasons For Granting The
Writ …………………………………….… 7

XI.

Conclusion …………………..………….. 14

XII.

Appendix ……………………………….. 16

iv

IV.

Table of Cases

Cases
Barnes v. Alexander,
232 U.S. 117, 34 S. Ct. 276,
58 L. Ed 530 (1914) …………………………… 2, 3, 11
Cent. States, Se & Sw Areas
Health & Welfare Fund v.
First Agency, Inc.,
756 F. 3d 954 (6th Cir. 2014) ………………….…. 11
Cent. States, Se. & Sw.
Health and Welfare
Fund v. Student Assurance
Services, Inc.,
797 F. 3d 512 (8th Cir. 2015) ………………….…. 11
Central States Se. & Sw.
Health and Welfare
Fund v. Bollinger, 573
F. App’x 197
(3d Cir. 2014) …………………………………….… 11

Central States, Se. & Sw.
Areas Health and
Welfare Fund v. Gerber
Life Ins. Co.,
771 F. 3d 150
(2d Cir. 2014) …………………………………..….… 11
v

Central States, Se. & Sw.
Areas Health and Welfare
Fund v. Health Special Risk, Inc.,
756 F. 3d 356 (5th Cir. 2014.) ……………………… 11
Comer v. Micor, Inc.,
436 F. 3d 1098 (9th Cir. 2006) ………………..….... 10
E.E.O.C. v. Waffle House, Inc.,
539 U.S. 279, 122 S. Ct. 754,151
L. Ed. 2d 755 (2002) ………………………………….... 9
Herzberger v. Standard
Insurance Co., 205 F. 3d
327 (7th Cir. 2000) …………………………………... 9
Mers v. Marriott Int’l Croup
Accidental Death &
Disbursement Plan,
144 F. 3d 1014
(7th Cir. 1998) ………………………………………... 13
Montanile v. Board of Trustees
of the National Elevator
Industry Health Benefit Plan,
_____ U.S. _____, 136 S. Ct. 651,
198 L. Ed. 2d 556 (2016) ………………………. 3, 8, 9
N.F. Gozo Corp. v. Kiselman,
38 Misc. 3d 48, 960 N.Y.S.
2d 864 (N.Y. 2012) ……………………….…….. 10, 12
vi

Savings Bank v. Ward,
100 U.S. 195, 25 L. Ed. 621 (1880) ………..…... 9, 12
Sereboff v. Mid-Atlantic
Medical Services, Inc.,
547 U.S. 356, 126
S. Ct. 1869, 164 L. Ed.
2d 612 (2006) ……..............… 2, 6, 7, 8, 9, 10, 11, 12
U.S. Airways v. McCutchen,
569 U.S. 88 133 S. Ct. 1537,
185 L. Ed. 2d 654 (2013) ....... 2, 3, 6, 8, 9, 10, 13, 14
Utley v. Donaldson,
94 U.S. 29 24 L. Ed. 54 (1877) ..……………….. 9, 12
Woodruff v. Trapnail,
51 U.S. 190, 13 L. Ed. 383 (1851) .…….................. 9

Constitutional Provisions
U.S. Constitution, Art. I, §§ 9,10 …………………... 12

Statutes
29 U.S.C. §1001(b) …………………………………..…. 9
29 U.S.C. §1022 ……………………………………….. 13
vii

29 U.S.C. 1132 (a)(3) ……………………………..... 1, 2
29 C.F.R. §2520.102-3(1) ………………………… 2, 13
Ohio Rev. C. §3109.01 ……………………………..…. 4
Rules
Fed. R. Civ. P. 26(a)(1) ……………………………… 13

viii

V.

Petition for Writ of Certiorari

Shelby Haynes, N. Gerald DiCuccio, Esq. and
Butler, Cincione & DiCuccio respectfully petition this
Court to grant a writ of certiorari to review the July
20, 2020 judgment of the Seventh Circuit Court of
Appeals.
VI.

Opinions Below

The decision of the Seventh Circuit United
States Court of Appeals in Case No. 19-2589 dated
July 20, 2020 is attached as Appendix A. The decision
of the United States District Court for the Northern
District of Illinois in Case No. 17-cv-6275 is attached
as Appendix B.
VII.

Jurisdiction

Petitioners Shelby Haynes, N. Gerald DiCuccio
and Butler, Cincione & DiCuccio invoke this Court’s
jurisdiction under and pursuant to 28 U.S.C. §1254,
having timely filed this petition within the filing
period prescribed by this Court’s standing orders.
VIII. Constitutional Provisions and Statutes
Involved
29 U.S.C. 1132 (a) states in relevant part,
A civil action may be brought
***
(3) by a participant, beneficiary, or
fiduciary (A) to enjoin any act or practice
1

which violates any provision of this
subchapter or the terms of the plan, or
(B) to obtain other appropriate equitable
relief (i) to redress such violations or (ii)
to enforce any provisions of this
subchapter or the terms of the plan.
IX.

Statement Of The Case

This petition seeks review of the Seventh
Circuit Court of Appeals’ decision which holds that
(a) ERISA plan fiduciaries may enforce equitable lien
by agreement claims against individuals with whom
they have no agreements, (b) equitable lien by
agreement claims may be enforced retroactively, and
(c) the common fund rule which this Court recognized
in U.S. Airways v. McCutchen, 569 U.S. 88, 101-106
(2013) does not apply where the ERISA fiduciary’s
summary plan description violates 29 C.F.R.
2520.102-3(1) by failing to clearly identify
circumstances which may result in a loss, reduction
or recovery of benefits.
In Sereboff v. Mid-Atlantic Medical Services,
Inc., 547 U.S. 356 (2006), this Court held that ERISA
§502 (a)(3)(B) [29 U.S.C §1132(a)(3)(B)] authorizes
ERISA fiduciaries to equitably enforce plan
reimbursement provisions against plan participants
who obtain tort claim recoveries from third parties.
The basis of such equitable lien by agreement claims
is the “familiar rule of equity that a contract to
convey a specific object even before it is acquired will
make the contractor a trustee as soon as he gets a
title to the thing,” 569.U.S. 363-364, 367, quoting
Barnes v. Alexander, 232 U.S. 117 (1914). This Court
2

subsequently affirmed and reaffirmed the contract
basis of equitable lien by agreement claims in U.S.
Airways v. McCutchen, 569 U.S. 88 (2013) (“that kind
of lien - - as its name announces - - both arises from
and serves to carry out a contract’s provisions”), and
Montanile v. Board of Trustees of the National
Elevator Industry Health Benefit Plan, _____ U.S.
_____, 136 S. Ct. 651 (2016) (“the basis for the
Barnes’ claim [is] the enforcement of a lien created by
an agreement.” Syllabus (a)(1)). The decision subject
of this petition holds that equitable liens by
agreement need not be based on any underlying
agreement, and may be enforced retroactively.
A. Facts Material To The Questions
Presented
Central States’ Fund provides health benefits
coverage for Teamsters Union members and their
dependents, the terms and conditions of which are set
forth in the Fund’s ERISA plan document (the
“Plan”), and in a corresponding summary plan
description (“SPD”).
Petitioner Haynes’ father Jeffrey Haynes
accepted employment with the County Engineer’s
Office of Lawrence County, Ohio in 2008, joined the
Teamsters Union as a condition of that employment,
and subsequently became entitled to receive family
health coverage issued by the Central States Fund as
part of his compensation. For reasons which are
unclear, Central States has no procedures in place for
obtaining Plan beneficiaries’ assent to the terms of its
Plan, and Jeffrey Haynes was never asked to agree to
3

bind Shelby Haynes to the terms of the Plan during
her minority.
Shelby Haynes’ eighteenth birthday was in
September of 2013, at which time she acquired the
sole right to enter into contracts. Ohio Rev. C.
§3109.01. The Fund did not ask her to agree to the
terms of its Plan at that time or thereafter, and did
not provide her with a copy of its Plan or SPD.
On December 11, 2013 Haynes underwent
emergency gallbladder removal surgery at a small
hospital in Ashland, Kentucky. During that surgery
her common bile duct was injured, which
necessitated emergency reconstructive surgery which
was performed on December 14, 2013 at the
University of Kentucky Medical Center in Lexington,
Kentucky. That second surgery successfully repaired
her injured common bile duct, but simultaneously
injured her hepatic duct, a separate but proximate
anatomical feature.
The record contains no evidence that Haynes
informed her medical providers of her health benefits
coverage, but her providers plainly submitted billings
to the Fund, which the Fund partially paid without
Haynes’ prior knowledge.
On January 10, 2014 Haynes retained N.
Gerald DiCuccio and his law firm to investigate her
possible malpractice claim. Three days later, an
attorney representing Central States first informed
petitioners that Central States’ Plan included
subrogation and reimbursement conditions. The
Fund did not at that time provide a copy of the Plan
document or its SPD to petitioners, and instead
provided only a copy of Plan Section 11.14, which
4

contains the Plan’s subrogation and reimbursement
conditions.
In December of 2014 petitioners commenced
petitioner Haynes’ state court malpractice action
against the Ashland, Kentucky hospital and medical
personnel involved in her initial surgery. The Fund
made no effort to intervene in that case or otherwise
enforce its claimed subrogation rights while that case
was pending.
Petitioner Haynes’ malpractice case was
settled in late June of 2017. The Fund then
commenced the action from which this petition is
taken on August 30, 2017. Petitioners first received
copies of the Plan document and SPD after this case
was commenced.
B.

Lower Court Proceedings

Central States’ complaint contains two
“equitable lien by agreement” claims which seek to
enforce the Plan’s reimbursement terms against
petitioners. Petitioners’ answers to the complaint
denied that Central States had any agreement with
petitioners, affirmatively alleged that no such
agreement exists, and asserted the defense of lack of
privity of contract.
The Fund and petitioners subsequently filed
summary judgment motions, petitioners asserting
therein that (1) the Fund doesn’t have an equitable
lien by agreement because it has no agreement with
any defendant, (2) the trial court erred in applying
the Fund’s lien claims retroactively so as to include
the recovery of payments made to medical providers
5

before the Fund initially informed petitioners of the
Plan’s reimbursement terms, and (3) due to the SPD’s
omission of the Plan’s common fund-negating
language, the common fund rule applies to the Fund’s
claims. Central States’ motion was unaccompanied by
any evidence that any petitioner had any agreement
with it.
On July 20, 2019 the trial court entered
judgment denying petitioners’ summary judgment
motion and granting Central States’ motion. The
court rejected petitioners’ first summary judgment
argument on grounds that Sereboff actually
establishes that ERISA plans are binding on thirdparty beneficiaries notwithstanding the absence of
their agreement or assent, reasoning that Shelby
Haynes was bound to the Plan because she “accepted
benefits” by failing to affirmatively reject such
benefits and reimburse the Fund. The court denied
petitioners’ “retroactivity” argument for the stated
reason that petitioners are bound by the Plan.
Petitioners’ third summary judgment
argument, regarding application of the common fund
rule, was that the SPD that Central States provided
to petitioners at the onset of this case does not
contain the common fund-negating language which
appears in its Plan document and thus “leaves space
for the common fund rule to operate.” McCutchen at
569 U.S. 103. However, one month after petitioners
filed their summary judgment motion, the Fund
submitted a different SPD which includes common
fund-negating language. Petitioners’ multiple
objections to Central States’ delinquent submission of
that second SPD were overruled as irrelevant due to
6

the trial court’s holding that neither version of the
SPD is in conflict with the Plan.
Petitioners timely appealed the trial court’s
judgment to the Seventh Circuit Court of Appeals
and asserted the above three summary judgment
issues as well as a prior trial court ruling barring the
affidavit of petitioners’ medical expert. 1 On July 20,
2020 the Seventh Circuit affirmed the trial court’s
judgment on essentially the same reasoning
expressed in the trial court’s decision.
X.

Reasons For Granting The Writ
a) Equitable Liens By Agreement Require
Agreements

This case presents a question of first
impression which went unanswered in Sereboff.
Relying on Sereboff, both the Court of Appeals and
the trial court held that ERISA plan fiduciaries are
entitled to enforce equitable lien by agreement claims
despite the absence of any agreement between the
parties. Both courts also recognized that Shelby
Haynes is a third-party beneficiary of the Plan, but
nevertheless held that the Plan’s reimbursement
terms bound Haynes with respect even to Plan
disbursements which predated the Fund’s disclosure
to petitioners of the Plan’s reimbursement language.
At first glance, the facts in Sereboff are similar
to those presented here. Marlene Sereboff received
health benefits coverage as an incident of her
This petition does not address the lower courts’ rulings barring
the affidavit of petitioners’ medical expert.
1

7

employment, her husband Joel was entitled to plan
benefits as an eligible dependent, and both Marlene
and Joel Sereboff were adjudged liable on MidAtlantic Medical Services’ equitable lien by
agreement claims. But the similarity between
Sereboff and this case ends there. Joel Sereboff never
asserted and accordingly waived lack of privity and
all other defenses and avoidances based on his lack of
an underlying agreement with Mid-Atlantic. Due to
that waiver, Sereboff doesn’t address whether Joel
Sereboff ever agreed to the terms of Mid-Atlantic’s
plan. The appellate court’s reliance on Sereboff as
authority for its holding is misplaced.
Nor do Sereboff, McCutchen and Montanile
suggest that a plan beneficiary’s passive inaction
might constitute “accepting benefits” and serve as a
permissible substitute for an agreement in equitable
lien by agreement cases. Petitioner Haynes never
directly communicated with the Fund, all of the
Fund’s payments were issued directly to third-party
providers without prior notice to Haynes, and the
evidentiary record is devoid of evidence that she
engaged in any act that might be construed as
accepting benefits. The Seventh Circuit’s decision
appears to create a new class of ERISA plan thirdparty beneficiaries who are deemed to have agreed to
the undisclosed terms of ERISA plans unless they
take affirmative steps to learn of those undisclosed
Plan terms, reject Plan payments and reimburse the
Plan for its previous payments to medical providers.
The Seventh Circuit’s decision further states
that “ordinary contract principles are in accord” with
its holding. They are not. Courts generally construe
ERISA plans as they do any other contracts,
8

McCutchen at 569 U.S. 89, and look to contract
principles to reach their decisions. Id. at 102. The
ERISA policy to which such contract principles are
tailored is the policy of protecting the interests of
plan participants and beneficiaries, rather than those
of plan administrators, 29 U.S.C. §1001(b), and
pursuant to that policy courts treat an ERISA plan as
a “special kind of contract” which confers “greater
protection on one of the parties, namely the
participant or beneficiary, than the other, the plan
administrator.” Herzberger v. Standard Insurance
Co., 205 F. 3d 327, 330 (7th Cir. 2000).
“A contract is defined to be an agreement
between competent persons, to do or not do a certain
thing,” Woodruff v. Trapnail, 51 U.S. 190 (1851).
“There can be no contract without the mutual assent
of the parties,” Utley v. Donaldson, 94 U.S. 29, 47
(1877), and “it goes without saying that a contract
cannot bind a non-party,” E.E.O.C. v. Waffle House,
Inc., 534 U.S. 279, 294 (2002). Petitioners are nonparties to the Plan.
Because Central States has no agreement with
petitioners “there is no privity of contract between
the parties,” Savings Bank v. Ward, 100 U.S. 195,
203 (1880) and “[u]nless we confine the operation of
such contracts to the parties who entered into
them,… the most absurd consequences, to which no
limit can be seen, will ensue.” Id at 203.
The scope of the “absurd consequences” which
ensue from the Seventh Circuit’s decision is difficult
to gauge, but clearly extends far beyond its impact on
Sereboff, McCutchen and Montanile, and beyond its
effect on established principles of contract formation
9

and privity of contract. That decision also conflicts
with well-settled law governing the rights of thirdparty beneficiaries and, with regard to ERISA, a
significant body of case law which has developed as
the result of Central States’ multiple attempts to
impose the terms of its Plan on other third parties.
Both of the lower courts recognized that
petitioner Haynes is an intended third-party
beneficiary of the Plan. That status gave Haynes the
right to sue to enforce the Plan’s terms, but did not
give the Fund any right to file suit against her. N.F.
Gozo Corp. v. Kiselman, 38 Misc. 3d 48, 960 N.Y.S. 2d
864, 848 (N.Y. 2012), Comer v. Micor, Inc., 436 F. 3d
1098, 1102 (9th Cir. 2006). The Seventh Circuit’s
decision significantly alters the definition of “thirdparty beneficiary” and embodies that altered
definition into ERISA and the common law generally.
With regard to ERISA law, the Seventh
Circuit’s decision also repudiates the holdings in a
series of cases involving Central States’ efforts to
equitably enforce the “coordination of benefits” terms
of its Plan against co-insurers of Plan beneficiaries.
Multiple courts have held that Central States’ claims
against co-insurers are barred by Sereboff and
McCutchen:
ERISA-plan provisions do not create
constructive trusts and equitable liens
by the mere fact of their existence; the
liens and trusts are created by the
agreement between the parties to
deliver assets. This conclusion follows
from McCutchen in which the
Supreme Court noted that plan terms
10

have no special force against third
parties and that its decision simply
amounted to holding the parties to
their mutual promises.
Central States, Se.
& Sw. Areas
Health and Welfare
Fund v. Health
Special Risk, Inc.,
756 F. 3d 356, 365
(5th Cir. 2014.)
See, also, Central States, Se. & Sw. Areas Health and
Welfare Fund v. Gerber Life Ins. Co., 771 F. 3d 150,
157 (2d Cir. 2014) (quoting Health Special Risk,
above). See, also, Cent. States, Se & Sw Areas Health
& Welfare Fund v. First Agency, Inc., 756 F. 3d 954
(6th Cir. 2014), Cent. States, Se. & Sw. Health and
Welfare Fund v. Student Assurance Services, Inc., 797
F. 3d 512 (8th Cir. 2015). See, also, Central States Se.
& Sw. Health and Welfare Fund v. Bollinger, 573 F.
App’x 197 (3d Cir. 2014) (“The key to equitable liens
by agreement that the Supreme Court recognized in
Barnes and Sereboff was an agreement between the
parties.” [Underscoring in the original]). The Seventh
Circuit’s contrary holding in this case compels the
conclusion that notwithstanding those decisions,
ERISA §502(a)(3) authorizes Central States to
enforce its Plan language against co-insurers and,
presumably, all other third parties, as fully as if they
were Plan signatories.
The Court of Appeals’ decision is clearly wrong
in that it contradicts Sereboff and progeny’s essential
holding that equitable liens by agreement must be
11

based on agreements, contradicts long established
law that “there can be no contract without the
mutual assent of the parties,” Utley, supra,
contradicts centuries-old law that the obligations of
contract apply only “to those who entered into them,”
Savings Bank v. Ward, supra, and contradicts wellsettled law that third-party beneficiary status
enables such beneficiaries to enforce their contract
rights but does not render them amenable to suit.
N.F. Gozo v. Kiselman, supra. This petition both
establishes the need and presents the opportunity to
clarify Sereboff and avoid the litany of conflicted
lawsuits which will otherwise necessarily follow in
the wake of the Seventh Circuit’s decision.
b) Retroactive Application
The Seventh Circuit’s holding that the Plan’s
reimbursement provisions apply retroactively so as to
entitle the Fund to recover payments it made to third
party medical providers before the Fund informed
petitioners of either the fact of those payments, or the
existence of the Plan’s reimbursement language,
defies both law and logic. Were one to assume for the
sake of argument that ERISA endows plan
administrators with actual legislative authority, such
authority would still not include the authority to
enact laws which impose liens retroactively. U.S.
Constitution, Art. I, §§ 9,10. It is simply irrational to
hold that an ERISA fund’s right to enter into
contracts of indemnity somehow includes the right to
retroactively impose liens against persons who never
agreed to plan terms with respect to funds that were
disbursed before the Fund notified them of either the
basis of its reimbursement claims or the fact of its
disbursements.
12

c) The Common Fund Rule
In September of 2017 appellants’ counsel
asked Central States’ counsel to provide the Plan
description booklet that was in effect during “the
relevant time period.” See Fed. R. Civ. P. 26(a)(1). In
response to that request, Central States’ counsel
provided a summary plan description which omits all
mention of the common fund rule from the SPD’s
“Subrogation and Reimbursement” section.
The omission of common-fund negating
language from the SPD the Fund provided to
petitioners clearly violates 29 U.S.C. §1022 and 29
C.F.R. §2520.102-3(1). As a result, that omission
estops Central States from enforcing the Plan’s
common fund-negating language, Mers v. Marriott
Int’l Group Accidental Death & Disbursement Plan,
144 F. 3d 1014, 1022 (7th Cir. 1998), and “leaves
space for the common fund rule to operate.”
McCutchen, 569 U.S. at 103.
Petitioners’ March 1, 2019 motion for summary
judgment devoted substantial argument to the fact
that Central States’ SPD fails to mention the Plan’s
common fund-negating language. One month after
petitioners filed that motion, Central States filed a
different SPD with the trial court which contains
common fund-negating language. Petitioners filed
multiple objections to the delinquent submission of
that second SPD, which the trial court disposed of by
ruling that the two versions of the SPD are not in
conflict, and holding that the language of the Plan is
in any event controlling. The Seventh Circuit
13

affirmed those rulings based on its reasoning that
“the Fund makes the Plan available online, mails
printed copies on request, and sent the relevant
provisions [the Plan reimbursement provisions] to
her lawyer before the malpractice settlement.” (App.
A, p. 7). Petitioners respectfully submit that the
appellate Court’s rationale is inadequate.
The common fund rule holds that “someone
‘who recovers a fund for the benefit of persons other
than himself’ is due a reasonable attorney’s fee from
the fund as a whole,” McCutchen at 569 U.S. 104, and
operates as a “default rule” “to govern in the absence
of a clear expression of the parties’ [contrary] intent.”
Id. at 102. In this case the first SPD, which Central
States represented to be the controlling document
while this case was pending in the trial court, clearly
conflicts with the subsequent SPD it improperly
submitted after the disclosure and discovery
deadlines had lapsed. The SPD that Central States
represented to be the correct document during the
pendency of this case in the trial court plainly
conflicts with both the Plan and the SPD that
Central States improperly submitted long after the
disclosure and discovery deadlines had lapsed.
Should this Court determine that Central States does
have equitable lien by agreement claims against
petitioners, it remains that petitioners are entitled to
the benefit of the common fund rule.
XI. Conclusion
For all of the foregoing reasons, petitioners
Shelby Haynes, N. Gerald DiCuccio and Butler,
Cincione & DiCuccio respectfully request that this
14

Court issue a writ of certiorari to review the July 20,
2020 judgment of the Seventh Circuit United States
Court of Appeals.
Dated this

day of December, 2020.

(Originally submitted October 16, 2020)

/s/ John A. Yaklevich
John A. Yaklevich, Esq.
(Ohio Sup. Ct. No. 0025588)
Moore & Yaklevich
33 South Grant Avenue
Columbus, Ohio 43215
(614) 241-2156
Fax: (614) 241-5009
jayyaklevich@gmail.com
Counsel for the Petitioners

15

Appendix Table Of Contents

Appendix A
Seventh Circuit Court of
Appeals 7/20/20 Opinion ……………………. 17
Appendix B
U.S. District Court N. D.
Illinois 7/19/19 decision ……………………. 25

16

Appendix A

In the

United States Court of
Appeals
For the Seventh Circuit
____________________

No. 19-2589
CENTRAL STATES, SOUTHEAST AND
SOUTHWEST AREAS HEALTH
AND WELFARE FUND and CHARLES A.
WHOBREY, Trustee,
Plaintiffs-Appellees,
v.
SHELBY L. HAYNES; N. GERALD DICUCCIO; and
BUTLER,
CINCIONE & DICUCCIO,
Defendants-Appellants.
____________________

17

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 17 C 6275 — Virginia M. Kendall, Judge.
____________________
ARGUED MAY 22, 2020 — DECIDED JULY 20,
2020
____________________
Before BAUER, EASTERBROOK, and WOOD,
Circuit Judges.
EASTERBROOK, Circuit Judge. Doctors removed
Shelby Haynes’s gallbladder in 2013. She was injured
in the process and required additional surgery that
led to more than $300,000 in medical expenses. Her
father’s medical-benefits plan (the Fund) paid these
because Haynes was a “covered dependent”. The plan
includes typical subrogation and repayment clauses:
on recovering anything from third parties, a covered
person must reimburse the Fund. In 2017 Haynes
settled a tort suit against the hospital, and others, for
$1.5 million. But she and her lawyers refused to
repay the Fund, which brought this action to enforce
the plan’s terms under §502(a)(3) of the Employee
Retirement Income Security Act of 1974 (ERISA), 29
U.S.C. §1132(a)(3).
Haynes concedes that the Fund paid her medical
bills but insists that she never agreed to reimburse it.
She did not sign a promise to follow the plan’s rules
18

and was not a participant (as opposed to a
beneficiary). The district judge disagreed with her
and granted summary judgment to the Fund for the
full amount of its outlay. 397 F. Supp. 3d 1149 (N.D.
Ill. 2019). Along the way, the district court enjoined
Haynes, Haynes’s malpractice lawyer, and the
lawyer’s firm from dissipating the proceeds of the
settlement. The Fund named each of them as a
defendant to avoid ambiguity about who possessed
the money. See Great-West Life & Annuity Insurance
Co. v. Knudson, 534 U.S. 204, 214 (2002).
Section 502(a)(3) allows fiduciaries to bring
actions to obtain “equitable relief … to enforce any
provisions of this title or the terms of the plan”.
Defendants do not contest the judge’s finding that the
money at issue is traceable to the settlement, and
they do not deny their possession and control of the
proceeds. Indeed, in awarding interest and attorneys’
fees and costs to the Fund, the district court found
that Haynes’s malpractice lawyer and his firm hold
the principal in constructive trust. Hence the nature
of the remedy sought—enforcement of a right to
identifiable assets—is equitable. See, e.g., Sereboff v.
Mid Atlantic Medical Services, Inc., 547 U.S. 356, 362
(2006) (discussing restitution in premerger courts of
equity).
But “equitable relief” under §502(a)(3) requires
more than asking for an equitable remedy; the claim
must be equitable as well. Montanile v. Board of
Trustees of the National Elevator Industry Health
Benefit Plan, 136 S. Ct. 651, 657–58 (2016). An action
19

to enforce “the modern-day equivalent of an equitable
lien by agreement” is one such basis. US Airways,
Inc. v. McCutchen, 569 U.S. 88, 98 (2013) (cleaned
up). That’s because a person who agrees to convey a
specific thing “even before it is acquired” becomes a
trustee on receiving title. Sereboff, 547 U.S. at 363–
64; Barnes v. Alexander, 232 U.S. 117, 121 (1914). No
one doubts that the Fund is a “fiduciary” or that it
seeks to “enforce … the terms of the plan”. Yet
Haynes argues that she never agreed to anything.
And her lack of assent removes the action from
§502(a)(3)’s ambit, she insists. See 29 U.S.C.
§1132(e)(1), (f); 28 U.S.C. §1331. We beg to differ.
The terms of the plan furnish beneficiaries with
rights and obligations. For example, §§ 12.01 to 16.04
describe medical, dental, vision, and life-insurance
benefits, and §11.06 makes these payable “to, or for
the benefit of,” those covered by the plan. Section
11.14 conditions payments on the Fund’s subrogation
and reimbursement rights, which extend to any
covered person. Haynes is a beneficiary under the
plan because her father—who worked under a
Teamsters’ Union collective bargaining agreement—
signed and delivered a writing electing coverage for
himself and his family. See Plan §3.02 (qualifying as
a “covered dependent”); Plan §§ 1.09, 1.16–19, 1.22,
1.26–28, 1.50 (defining terms); 397 F. Supp. 3d at
1153.
Section 11.11 of the plan explains that “[t]he Fund
is a self-funded employee benefit plan governed by”
ERISA. That statute says that it applies to plans
20

such as this. See 29 U.S.C. §1003(a). And it
recognizes Haynes as a beneficiary because her father
designated her as one under the plan’s terms. 29
U.S.C. §1002(8). The Justices have repeatedly held
that fiduciaries may bring actions against
beneficiaries under §502(a)(3). See, e.g., Sereboff, 547
U.S. at 359, 369 (permitting a plan administrator to
proceed against a covered employee and her
beneficiary husband). See also Harris Trust &
Savings Bank v. Salomon Smith Barney Inc., 530
U.S. 238, 246 (2000) (“But §502(a)(3) admits of no
limit … on the universe of possible defendants.”).
That’s all the Fund needs to prevail.
Haynes wants to replace the statutory terms, and
those of the plan, with principles of contract law.
Doubtless ordinary contract rules should be used to
flesh out provisions on which ERISA or a plan are
silent or ambiguous. See, e.g., M&G Polymers USA,
LLC v. Tackett, 574 U.S. 427 (2015). But neither the
plan nor the statute is in need of supplementation.
The district judge found that Haynes was a
beneficiary under an ERISA plan. 397 F. Supp. 3d at
1156–58. The plan itself depends on the assent of an
employer (its sponsor) and a fiduciary (the Fund) that
manages its operation. Employees (called
participants) get the benefits without a separate
contract, although some optional features (such as
covering dependents) are contractual in nature. A
participant’s family member is a kind of third-party
beneficiary, whose rights under the plan do not
depend on personal assent. Such a person may reject
an unwanted benefit by disclaiming it. Restatement
21

(Second) of Contracts §306 & cmts. a–b (1981). See
also Olson v. Etheridge, 177 Ill. 2d 396, 404 (1997).
But Haynes doesn’t argue that she disclaimed the
plan’s financial aid and paid the bills herself.
Having accepted the plan’s benefits, Haynes must
accept the obligations too. That’s what the plan says,
and ordinary principles of contract law are in accord.
See Restatement (Second) of Contracts §309(4) & cmt.
c. See also Olson, 177 Ill. 2d at 404–05; Liu v. Mund,
686 F.3d 418, 421 (7th Cir. 2012); Holbrook v. Pitt,
643 F.2d 1261, 1273 & n.24 (7th Cir. 1981). An
equitable lien by agreement “serves to carry out a
contract’s provisions.” McCutchen, 569 U.S. at 98. In
this case that means the plan’s subrogation and
reimbursement clauses. The Fund did not need to
require beneficiaries to execute those provisions
separately. See Preze v. Pipefitters Welfare Fund, 5
F.3d 272 (7th Cir. 1993) (recognizing a limited
exception). And the provisions confer rights to
specified assets. 397 F. Supp. 3d at 1152–55.
Haynes asks us to ignore all of this because the
surgeries took place three months after her
eighteenth birthday, and the Fund did not ask for her
consent as an adult. Her attorney suggested that the
insurance industry might benefit from more
paperwork and an “algorithm” for obtaining the
assent of former minors. But, as should be clear by
this point, Haynes’s transition to adulthood is
irrelevant. If she had been an adult throughout (as,
say, a participant’s spouse) she would have been
required to reimburse the plan. So too if she had been
22

a minor throughout. Why should it matter if she
makes the transition to adulthood after her father
elects to bring her within the plan’s coverage?
If fiduciaries can reach the recovery of a
participating employee’s spouse, how is Haynes any
different? See, e.g., Sereboff, 547 U.S. at 359
(discussing the reimbursement of beneficiaries’
medical expenses). Section 3.30(e) of the plan
continues a child’s status as a “covered dependent”
through age 26, and Haynes doesn’t argue that other
provisions terminated that status. Neither the Act
nor any rule of contract law alters this. Minors can
treat some promises as voidable, but adults (which
Haynes was at the time of her surgeries) cannot. See
Restatement (Second) of Contracts §14 & cmt. a. We
doubt that 17 year olds would be happy to learn that,
unless they sign some papers on their next birthdays,
they lose medical coverage under ERISA plans. The
absence of a beneficiary’s signed writing—at age 13
or 18 or 48—doesn’t invalidate any of the plan’s
terms.
Haynes contends that counsel should be able to
keep a share of the settlement under equitable
principles. But §11.14(j) of the plan expressly forbids
this approach, and “if a contract abrogates the
common-fund doctrine, the insurer is not unjustly
enriched by claiming the benefit of its bargain.”
McCutchen, 569 U.S. at 100.
Haynes also maintains that she shouldn’t be
bound by this provision because a summary plan
23

description does not explain that the plan displaces
the common-fund doctrine. Yet the Fund makes the
plan available online, mails printed copies on request,
and sent the relevant provisions to her lawyer before
the malpractice settlement. The point of a summary
plan description is to summarize; some terms
necessarily are omitted. At all events, if the plan and
the summary plan description conflict, the plan
controls. CIGNA Corp. v. Amara, 563 U.S. 421, 438
(2011).
Finally, Haynes’s complaint about the district
court’s decision to exclude an expert’s report, 2018
U.S. Dist. LEXIS 234265 (N.D. Ill. Oct. 24, 2018), is
beside the point; this case has been resolved on legal
grounds that are unaffected by any expert’s
conclusions, admissible or not.
Neither the plan, the Act, nor the common law
excuses Haynes from her obligation to reimburse the
Fund. Her status as a beneficiary—whether minor or
adult—doesn’t deprive a fiduciary of the ability to
obtain appropriate equitable relief under §502(a)(3) of
the Act.
AFFIRMED

24

Appendix B

Case: 1:17-cv-06275 Document #: 129 Filed: 07/19/19 Page 1 of
26 PageID #:2304

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

CENTRAL STATES, SOUTHEAST
AND SOUTHWEST AREAS
HEALTH AND WELFARE FUND,
And CHARLES A. WHORBREY,
Trustee,
Plaintiffs,
v.

)
)
)
)
) No. 17C6275
)
) Judge
) Virginia M.
) Kendall
SHELBY L. HAYNES,
)
an Individual,
)
N. Gerald DiCuccio, Esq.
)
an Individual, and
)
BUTLER, CINCIONE & DICUCCIO, )
an Ohio Partnership,
)
Defendants.
)

25

MEMORANDUM OPINION AND ORDER
In 2013, doctors performing a gallbladder
removal surgery on Shelby Haynes injured her,
necessitating a second surgery three days later.
Haynes incurred $312,286.50 in medical expenses as
a result, and her insurer—Central States, Southeast
and Southwest Areas Health and Welfare Fund
(together with its trustee, Charles Whobrey, “Central
States”)—footed the bill. Haynes, represented by
Butler, Cincione & DiCuccio, subsequently sued the
doctors that performed the first surgery and the
hospital where they performed it. In 2017, the
parties settled that lawsuit for $1,500,000 and
Haynes’s law firm accepted a mailed check on her
behalf.
After the settlement, Haynes and her counsel
refused to reimburse Central States the amount it
previously covered for her, so Central States sued
them under the Employee Retirement Income
Security Act of 1974 (ERISA) alleging it had an
equitable lien on the settlement fund held by the firm
and seeking to impose a constructive trust on it. The
parties cross-moved for summary judgment in early
2019 arguing the material facts are undisputed
therefore entitling them to judgment as a matter of
law. (Dkt. 96, 102.) Because the terms of the health
insurance contract— including the reimbursement
provision—bind Haynes, and neither she nor her
attorneys can assert any equitable defense consistent
with the contract, the Court grants Central States’
26

motion (Dkt. 96), denies the defendants’ cross-motion
(Dkt. 102), and enters summary judgment for Central
States.
BACKGROUND
On December 11, 2013, 18-year-old Shelby
Haynes underwent surgery at Bon
Secours Kentucky Health Systems in Ashland,
Kentucky to remove her gallbladder. (Dkt. 108 ¶ 11;
Dkt. 113 ¶ 8.) During that surgery, Haynes
sustained an injury to her common bile duct (a tube
that connects to the gallbladder). (Dkt. 113 ¶ 9.) On
December 14, 2013, Haynes had a second surgery
performed on her at the University of Kentucky
Medical Center to repair the damage to her common
bile duct. (Dkt. 108 ¶ 12; Dkt. 113 ¶ 10.) Haynes
incurred $312,286.50 in medical expenses because
the first surgery went wrong. (Dkt. 108 ¶ 13.)
Central States paid out health insurance benefits for
this treatment because Haynes was a covered
beneficiary under her father’s ERISA-governed
employee welfare plan. (Dkt. 108 ¶¶ 14, 29, 32; Dkt.
110 ¶ 2; Dkt. 113 ¶ 4.)

The Fund and the Plan Documents
Central States annually provides every
participant in the Plan—including Haynes and her
father—with a Summary of Benefits and Coverage
(SBC) because federal law requires it to. (Dkt. 121 ¶
27

2.) The SBC describes the participants’ coverage and
gives them information on how to obtain a copy of the
Plan, which is readily available online and can also
be supplied in writing. Id.
Central States also sends all new enrollees a copy
of the Summary Plan Description (SPD) along with
their enrollment form. Id. ¶ 3. With respect to the
enrollment form, Central States received a version
signed by Haynes’s father in August 2008, in which
he elected coverage for himself and his family,
including Haynes. Id. ¶ 5. In addition to sending the
SPD upon enrollment, Central States periodically
distributes copies of the SPD as the law requires it to.
Id.
Both Shelby Haynes and her father do not
dispute receiving the SPD, although they never
received a copy of the Plan. Id. Central States’
records indicate that it sent Haynes’s father a copy of
the SPD in June 2008 and then again in November
2013. Id. ¶ 4. The SPD states that “‘[a]ll information
in this booklet . . . is subject to the terms of the actual
Health and Welfare Plan document.’” Id. ¶ 10. It
also asserts that “[t]he Plan has a full right of
subrogation and/or reimbursement each time you
and/or one or more of your covered dependents
receive benefit payments by the Plan for any physical
or mental condition or injury that was or may have
been caused by any person.” Id. ¶ 11. The SPD
continues, declaring: “The Plan is entitled to full
reimbursement, from your settlement or other
recovery, of all of its benefit payments for care and
28

treatment of injuries. That full reimbursement is not
reduced by any attorneys’ fees or other costs you
incur in obtaining your settlement or other recovery.”
Id.

For its part, the Plan itself states the following
regarding subrogation and reimbursement:
The Fund, whenever it makes any
payment for any benefits on behalf of a
Covered Individual or other person
related to any illness, injury or
disability (collectively and separately
“Disability”) of the person, is
immediately subrogated and vested with
subrogation rights (“Subrogation
Rights”) to all present and future rights
of recovery (“Loss Recovery Rights”)
arising out of the Disability which that
person . . . may have. The Fund’s
Subrogation Rights extend to all Loss
Recovery Rights of the Covered
Individual. The Loss Recovery Rights of
the Covered Individual include, without
limitation, all rights based upon one or
more of the following:
(1) Any act or omission by any person or
entity…

29

(2) Any policy . . . for any insurance,
indemnity or reimbursement . . . and
also including every other form of nofault liability insurance, personal-injury
protection
insurance,
financial
responsibility
insurance,
uninsured
and/or underinsured motorist insurance
and any casualty liability insurance or
medical payments coverage . . .

*

The right, at any time after the Fund
becomes vested with Subrogation
Rights, to prosecute a civil action
against the Covered Individual and/or
against any person and/or other entity
(including any insurance company)
which the Fund claims to be responsible,
in whole or in part, to provide payment
or reimbursement to the Fund of the
unrecovered amount of the Fund’s
Subrogation Rights.

*

30

The Covered Individual shall fully
cooperate with the Fund in enforcement
of the Fund’s Subrogation Rights, shall
make prompt, full, accurate and
continuous disclosures to the Fund’s
representatives of all information about
all circumstances of his/her Disability
and about other specifics of his/her Loss
Recovery Rights . . . and shall refrain
from any act or omission that would to
any extent prejudice or impair the
Fund’s Subrogation Rights or seek to
prejudice or impair the Fund’s
Subrogation Rights.

*

The payment by the Fund for any
benefits on behalf of a Covered
Individual related to his/her Disability,
and the simultaneous creation of the
Fund’s Subrogation Rights to the full
extent of present and future payments,
shall by itself (without any
documentation from, or any act by, the
Covered Individual) result in an
immediate assignment to the Fund of all
right, title and interest of the Covered
Individual to and in any and all of
31

his/her Loss Recovery Rights to the
extent of such payments, and said
payment by the Fund on behalf of a
Covered Individual shall be deemed to
constitute the Covered Individual’s
direction to his/her attorneys and other
representatives to reimburse the full
amount of the Fund’s Subrogation
Rights, from any settlement proceeds or
other proceeds (collectively “Proceeds”)
which are paid to the attorneys or
representatives for or on behalf of the
Covered Individual, before the Covered
Individual receives any Proceeds in full
or partial satisfaction of his/her Loss
Recovery Rights, and before any fees or
expenses are paid, including attorneys’
fees.

*

The Fund is authorized but not required
to bring actions in enforcement of the
Fund’s Subrogation Rights, including
direct actions (as subrogee or otherwise)
against any person, entity, or
Responsible Person which the Fund
claims to be responsible, in whole or
part, to provide payment or
compensation or reimbursement to the
Fund of the unrecovered amount of the
32

Fund’s Subrogation Rights, and
including actions against any person,
entity, or Responsible Person to enjoin
any act or practice which violates any
terms of the Plan, the Fund’s
Subrogation Rights and/or to obtain
other appropriate equitable relief to
redress such violations and/or to enforce
the Fund’s Subrogation Rights. A
responsible Person is any person or
entity, including attorneys or other
representatives of a Covered Individual
in any claim for damages for a Disability
suffered by the Covered Individual,
resulting from any act or omission of
another person or entity, and who
received any Proceeds, by way of
settlement or award from such claim for
damages. If such an action is filed by
the Fund and the Fund prevails in any
amount on any of its claims, all persons,
entitles and Responsible Person(s)
against whom such action is filed shall
jointly and severally be responsible for
all costs and expenses, including
attorneys’ fees, incurred by the Fund in
connection with or related to such civil
action.

*
33

The Fund is entitled to receive payment
and reimbursement in the full amount
of the Fund’s Subrogation Rights before
the Covered Individual receives any
Proceeds in full or partial satisfaction of
his/her Loss Recovery Rights and before
any fees or expenses are paid, including
attorneys’ fees. If the Fund is vested
with Subrogation Rights pursuant to
this Section 11.14, then, before the
Covered Individual receives any
Proceeds, the Covered Individual, and
every person and entity that provides
any recovery of Proceeds to or on behalf
of a Covered Individual, are obligated to
cause all such Proceeds to be paid
primarily and directly to the Fund until
the Fund has received full payment and
reimbursement of the Fund’s
Subrogation Rights.

(Dkt. 108 ¶¶ 4–9.) Finally, Section 11.14(f) of the
Plan explains that Central States “may assert a lien,
for recovery of the Fund’s Subrogation Rights against
any person or entity.” Id. ¶ 10.

34

On January 13, 2014, Central States gave
notice to N. Gerald DiCuccio, counsel for Haynes,
that it expected Haynes to fully reimburse it should
she later recover for her injuries from any third
parties. (Dkt. 108 ¶ 29; Dkt. 113 ¶ 114.) Per the
Plan, full reimbursement means that:
Subsection (g) has long provided in part
that, unless otherwise expressly agreed
in a specific instance, “[t]he Fund shall
not be financially responsible for any
expenses, including attorneys’ fees,
incurred by or on behalf of a Covered
Individual in the enforcement of his/her
Loss Recovery Rights . . . ” The Fund’s
Subrogation Rights are not in any way
subordinate to or affected by any
‘common fund’ principle or factor –
sometimes described as the equitable
concept of a ‘common fund’ which
governs the allocation of attorneys’ fees
in any case in which a lawyer hired by
one party creates through his/her efforts
a fund in which others are entitled to
share as well – the acceptance of plan
benefits from the Fund entirely
subordinates the Loss Recovery Rights
of the Covered Individual to the
Subrogation Rights of the Fund (without
35

any ‘common fund’ reduction or other
reduction of those Subrogation Rights).

(Dkt. 121 ¶ 9 (emphasis in original).)

Haynes’s Settlement with the Hospital

Haynes, represented by Butler, Cincione &
DiCuccio, sued the first hospital and its surgical team
for medical malpractice on December 8, 2014 in
Kentucky state court. (Dkt. 108 ¶ 16; 113 ¶ 16.) The
parties settled that lawsuit for $1,500,000 during the
summer of 2017. (Dkt. 108 ¶ 17; Dkt. 113 ¶ 17.)
During the settlement process, the defendants
represented to the mediator that Central States paid
$320,000 of Shelby Haynes’s medical bills. (Dkt. 108
¶ 24.) In fact, DiCuccio received and then attached a
“Medical Benefits Paid Spreadsheet,” prepared by
Central States, to the statement he sent to the
mediator. Id. ¶¶ 25–26. The spreadsheet lists dates
of service, service providers, amounts charged by
service providers, and the amounts of those charges
paid by Central States. Id. ¶ 27.
Payment processed shortly following settlement
and DiCuccio deposited it in his trust account. (Dkt.
108 ¶¶ 18–19; Dkt. 113 ¶ 17.) Receiving no
36

reimbursement, Central States sued Haynes and her
co-defendants in this Court on August 30, 2017 to
enforce its lien through the imposition of a
constructive trust on the settlement proceeds in
DiCuccio’s account. (Dkt. 108 ¶ 21; Dkt. 113 ¶ 18.)
The parties both moved for summary judgment: the
Central States plaintiffs in February (Dkt. 96) and
the Haynes defendants in March (Dkt. 102).
STANDARD OF REVIEW
Summary judgment is proper when “the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a); see, e.g.,
Reed v. Columbia St. Mary’s Hosp., 915 F.3d 473, 485
(7th Cir. 2019). The parties genuinely dispute a
material fact when “‘the evidence is such that a
reasonable jury could return a verdict for the
nonmoving party.’” Daugherty v. Page, 906 F.3d 606,
609–10 (7th Cir. 2018) (quoting Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986)). “Rule 56
‘mandates the entry of summary judgment, after
adequate time for discovery and upon motion, against
a party who fails to make a showing sufficient to
establish the existence of an element essential to that
party’s case, and on which that party will bear the
burden of proof at trial.’” Zander v. Orlich, 907 F.3d
956, 959 (7th Cir. 2018) (quoting Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986)).

37

ANALYSIS
Section 502(a)(3) of ERISA authorizes plan
fiduciaries, such as a board trustee, to bring civil
suits “to obtain other appropriate equitable relief . . .
to enforce . . . the terms of the plan.” 29 U.S.C. §
1132(a)(3). When a plan fiduciary seeks
reimbursement for medical expenses after a plan
beneficiary recovers money from a third party, the
basis for the fiduciary’s claim is equitable. See
Montanile v. Bd. of Trustees of Nat. Elevator Indus.
Health Benefit Plan, 136 S. Ct. 651, 657 (2016).
Indeed, Central States’ claim for reimbursement
here turns out to be “the modern-day equivalent of an
action in equity to enforce . . . a contract-based lien—
called an ‘equitable lien by agreement.’” US Airways,
Inc. v. McCutchen, 569 U.S. 88, 95 (2013) (citing
Sereboff v. Mid Atl. Med. Servs., Inc., 547 U.S. 356,
364–65 (2006)). Central States can therefore “bring
an action under § 502(a)(3) seeking the funds that its
beneficiar[y] . . . promised to turn over.” Id.
Haynes and her co-defendants first and foremost
argue that Central States has no equitable lien by
agreement with Haynes. That is, there is no
agreement (contract) between Central States and
Haynes because Haynes is a so-called third-party
beneficiary that never agreed to the Plan’s terms.
Second, the defendants contend that DiCuccio and
his law firm are not proper parties to this lawsuit.
Third, the defendants insist that the common fund
doctrine should reduce Central States’ claim, in
38

addition to other remedial challenges to the lien
amount.
I. Agreement between Central States and Haynes
Haynes stakes out the novel position that, as a
“third-party beneficiary” to the health insurance
contract, she is not bound by its terms. Points for
creativity, Central States responds, but Haynes
enrolled in the Plan, paid the premiums, and
accepted benefits as a “covered dependent.” As an
initial matter, the terminology used by the parties to
define Haynes’s status calls for clarification. Starting
with the statute, “[t]he term ‘beneficiary’ means a
person designated by a participant, or by the terms of
an employee benefit plan, who is or may become
entitled to a benefit thereunder.” 29 U.S.C. §
1002(8); see Pennsylvania Chiropractic Ass’n v. Indep.
Hosp. Indem. Plan, Inc., 802 F.3d 926, 928 (7th Cir.
2015).
An individual is thus a beneficiary if a plan
participant designates her as one or if the Plan itself
directly designates her to receive benefits. See
Ruttenberg v. U.S. Life Ins. Co. in City of New York, a
subsidiary of Am. Gen. Corp., 413 F.3d 652, 661 (7th
Cir. 2005). The typical beneficiary in an ERISA plan
is the participant’s spouse or child. See Rojas v.
Cigna Health & Life Ins. Co., 793 F.3d 253, 257 (2d
Cir. 2015); Wal-Mart Stores, Inc. Associates’ Health &
Welfare Plan v. Wells, 213 F.3d 398, 402 (7th Cir.
2000); Riordan v. Commonwealth Edison Co., 128
F.3d 549, 551 (7th Cir. 1997).
39

In this case, Shelby Haynes is Jeffrey Haynes’
daughter. Jeffrey Haynes, indisputably a plan
“participant” as ERISA defines that term in §
1002(7), designated Shelby Haynes as a person to
receive health benefits under the Plan. Dkt. 121 ¶ 5;
see Kennedy v. Connecticut Gen. Life Ins. Co., 924
F.2d 698, 700 (7th Cir. 1991). Shelby Haynes did not
just have a colorable claim to vested benefits, she
unquestionably received benefits from Central States.
See Neuma, Inc. v. AMP, Inc., 259 F.3d 864, 878 (7th
Cir. 2001). She is therefore a beneficiary under §
1002(8) of ERISA.
Moving to the context of the parties’ agreement,
the Plan states in Article 1.22 that a dependent is a
“Participant’s Spouse or Qualified Same-Sex
Domestic Partner or Child.” (Dkt. 98-2 at 14.) In
turn, the Plan says in Article 1.17 that a covered
dependent is a “Dependent who qualifies for
Coverage under this Plan in accordance with the
provisions of Article III of this Plan.” Id. Article III,
namely 3.02, goes on to explain that an individual
becomes a covered dependent “when the person upon
whom he is dependent is considered a Covered
Participant provided the Covered Participant has
elected the dependent coverage option under his
plan.” Id. at 19. When covered dependent status
applies to a child, it commences “on the date such
status as Child begins or on the date the Participant
becomes a Covered Participant, whichever

40

occurs later, provided the Covered Participant has
elected the dependent coverage option under his
plan.” Id. at 27.
Here, Shelby Haynes is certainly the
Participant’s (Jeffrey Haynes’s) child. That makes
her a dependent. She generally qualifies for coverage
because Jeffrey Haynes is (or was) a Covered
Participant that elected the dependent coverage
option under his plan. (Dkt. 121 ¶ 5.) More
specifically, in the circumstances of coverage for
children, the Plan started covering Shelby Haynes as
soon as her father enrolled their family. Accordingly,
she is a covered dependent under the terms of the
Plan. See, e.g., Mahrt v. Plumbers’ Local #63, No. 931389, 1994 WL 930438, at *4 (C.D. Ill. Oct. 14, 1994).
Ending with contract law, a “third-party
beneficiary is someone whom the contracting parties
wanted to have the right to enforce the contract.”
Thomas v. UBS AG, 706 F.3d 846, 852 (7th Cir. 2013)
(collecting cases). In other words, if two parties enter
into a contract “for the direct benefit of a third person
who is not a party to the contract, that person may
sue on the contract as a third-party beneficiary.” City
of Yorkville ex rel. Aurora Blacktop Inc. v. Am. S. Ins.
Co., 654 F.3d 713, 716 (7th Cir. 2011) (citing Carson
Pirie Scott & Co. v. Parrett, 178 N.E. 498, 501 (Ill.
1931)).
In Illinois:

41

The test is whether the benefit is direct,
in which case the person may sue, or
incidental, in which case the person may
not. The intent to benefit the third
party must affirmatively appear from
the language of the contract. If the
intent to benefit others is not explicitly
provided for in the contract, “its
implication at least ‘must be so strong
as to be practically an express
declaration.’” The parties’ intent is to be
gleaned from a consideration of all of the
contract and the circumstances
surrounding the parties at the time of
its execution.
Id. at 716–17 (internal citations omitted); see also
Cmty. Bank of Trenton v. Schnuck Markets, Inc., 887
F.3d 803, 820 (7th Cir. 2018). It follows, then, that
“Illinois courts tend to find third-party beneficiary
status where an agreement contains language to the
effect that the surety will be responsible to third
parties if the contractor is unable to fulfill its
obligation to them.” Id. at 717.
Applying these principles to this case, Jeffrey
Haynes and Central States contracted, at least in
part, for the direct health benefits of a third person
who is not a technical party to the contract: namely,
Shelby Haynes. See, e.g., Lopez v. Reliance Standard
Life Ins. Co., No. 515CV00125RLVDCK, 2016 WL
3191242, at *5–6 (W.D.N.C. June 3, 2016); Donald v.
Liberty Mut. Ins. Co., 18 F.3d 474, 481 (7th Cir.
42

1994) (discussing third-party beneficiary health
insurance contracts).
The parties’ intent to benefit Shelby Haynes
affirmatively appears in the language of the Plan and
Jeffrey Haynes’s enrollment of Shelby in it. As stated
previously, the Plan generally cognizes that a covered
participant’s children will be covered dependents, so
long as the covered participant elects the dependent
coverage option under his plan, which Jeffrey Haynes
clearly did. (Dkt. 121 ¶ 5.) That is just as true
broadly speaking as it is in the more limited setting
of the reimbursement and subrogation provision that
makes Shelby Haynes responsible to third parties.
That Shelby Haynes is a third-party beneficiary
does not necessarily mean that she is not bound by
the terms of her health insurance contract. Quite the
contrary, “a third-party beneficiary has the duties as
well as the rights of a signatory to the contract.”
Wenfang Liu v. Mund, 686 F.3d 418, 421 (7th Cir.
2012), as amended (July 27, 2012) (citing in part
Restatement (Second) of Contracts § 309(4) (1981));
see Restatement (Second) of Contracts § 309 cmt. c
(“The conduct of the beneficiary, however, like that of
any obligee, may give rise to claims and defenses
which may be asserted against him by the obligor,
and his right may be affected by the terms of an
agreement made by him.”). Put differently, a “thirdparty beneficiar[y] . . . [is] bound by the terms and
conditions of the [c]ontract[ ].” Holbrook v. Pitt, 643
F.2d 1261, 1273 (7th Cir. 1981) (internal citations
43

omitted); see Retired Chicago Police Ass’n v. City of
Chicago, 7 F.3d 584, 594 (7th Cir. 1993).

Not surprisingly, this canon of contract law
appears both explicitly and implicitly in decisions
under ERISA dealing with third-party beneficiary
health insurance contracts. As it happens, the
Supreme Court’s relevant jurisprudence is predicated
on scenarios where a covered individual received a
tort settlement related to an injury, and under the
ERISA plan’s terms, the Fund sought reimbursement
for the medical expenses it paid connected to that
injury. See McCutchen, 569 U.S. at 92 (participant);
Sereboff, 547 U.S. at 359 (participant and
beneficiary—the participant’s spouse).
Both the plaintiffs in Sereboff, for instance
(including the beneficiary), expressly agreed in their
insurance policies to reimburse their insurer for the
benefits it paid if the plaintiffs recovered money from
a third party to compensate for their injuries. See
Sereboff, 547 U.S. at 359. Absent such a promise by
the beneficiary to reimburse the plan, the Supreme
Court would not have had reason to hold that it
created an equitable lien by agreement. Because, as
the Court later put it, “that kind of lien—as its name
announces—both arises from and serves to carry out
a contract’s provisions. So enforcing the lien means
holding the parties to their mutual promises.”
McCutchen, 569 U.S. at 98 (internal citations
omitted). In sum, without the agreement to
44

reimburse the plan in Sereboff, there could have been
no equitable lien by agreement.

The Fifth Circuit analogized the plan provision
between the beneficiary and the fiduciary in Sereboff
to a “contract to convey a specific res once it was
received . . . This contract ‘created a lien’ on the
specific assets to be conveyed under the contract. It
was this provision . . . the contract between
beneficiary and fiduciary to convey specified funds
upon receipt . . . that created the equitable lien . . .”
Cent. States, Se. & Sw. Areas Health & Welfare Fund
ex rel. Bunte v. Health Special Risk, Inc., 756 F.3d
356, 365 (5th Cir. 2014).
Not to put too fine a point on it, the Third Circuit
and a district court in this Circuit have similarly
reasoned. In McLaughlin v. Bd. of Trustees of Nat’l
Elevator Indus. Health Benefit Plan, the Third
Circuit stated that “the relationship of a participant
and eligible dependent is born of and encompassed
within contract, namely the Plan documents.” 686 F.
App’x 118, 123 (3d Cir. 2017) (expounding further
that the plan participant and beneficiary were in
privity of contract). Correspondingly, in OSF
Healthcare Sys. v. Insperity Grp. Health Plan, the
district court asserted that “an ERISA beneficiary
makes his contract with a plan,” and “[b]eneficiaries
contract with plans to receive benefits.” 82 F. Supp.
3d 860, 863–64 (C.D. Ill. 2015) (referring to it again
45

as “the original contractual relationship created
between beneficiary and plan.”). The court concluded
that beneficiaries under ERISA are third-party
beneficiaries under the common law of contracts. See
id. at 864.
Like those courts, other federal courts are in
lockstep with Sereboff’s premise that third-party
beneficiaries (covered dependents) are contractually
bound by the terms, such as a reimbursement
provision, of their health insurance policies. See
Rhea v. Alan Ritchey, Inc. Welfare Benefit Plan, 858
F.3d 340, 347 (5th Cir. 2017); JDA Software Inc. v.
Berumen, No. CV-14-01565-PHX-DLR, 2016 WL
6143188, at *3 (D. Ariz. Oct. 21, 2016); Oregon
Teamster Employers Tr. v. Hillsboro Garbage
Disposal, Inc., 800 F.3d 1151, 1160 (9th Cir. 2015);
Cent. States, Se. & Sw. Areas Health & Welfare Fund
v. Bollinger, Inc., 573 F. App’x 197, 203 (3d Cir.
2014); Food Employers Labor Relations Ass’n &
United Food & Commercial Workers Health &
Welfare Fund v. Dove, No. CIV.A. GJH-14-1273, 2014
WL 6388399, at *5 (D. Md. Nov. 13, 2014); ACS
Recovery Servs., Inc. v. Griffin, 723 F.3d 518, 526–28
(5th Cir. 2013) (en banc) (collecting cases); Rashiel
Salem Enterprises LLC v. Bunton, No. CV-1108202PHX-NVW, 2013 WL 3581723, at *3 (D. Ariz.
July 12, 2013); J.T. ex rel. Thode v. Monster
Mountain, LLC, 754 F. Supp. 2d 1323, 1326 (M.D.
Ala. 2010) (quoting in part Hamrick v. Hosp. Serv.
Corp., 110 R.I. 634, 296 A.2d 15, 17–18 (1972));
Longaberger Co. v. Kolt, 586 F.3d 459, 468 (6th Cir.
2009) (abrogated on other grounds by Montanile,136
46

S. Ct. at 651); Admin. Comm. of Wal-Mart Stores, Inc.
Associates’ Health & Welfare Plan v. Gamboa, 479
F.3d 538, 545 (8th Cir. 2007) (quoting Health Cost
Controls of Illinois, Inc. v. Washington, 187 F.3d 703,
712 (7th Cir. 1999)); Kress v. Food Employers Labor
Relations Ass’n, 391 F.3d 563, 570–71 (4th Cir. 2004);
Trustees of AFTRA Health Fund v. Biondi, 303 F.3d
765, 782 (7th Cir. 2002); Mathews v. Sears Pension
Plan, 144 F.3d 461, 465–66 (7th Cir. 1998); Health
Cost Controls v. Isbell, 139 F.3d 1070, 1071 (6th Cir.
1997); Cmty. Ins. Co. v. Richardson, No. C- 3-96-98,
1997 WL 1526503, at *1 (S.D. Ohio Nov. 3, 1997),
aff’d, 172 F.3d 872 (6th Cir. 1999); Sunbeam-Oster
Co. Grp. Benefits Plan for Salaried & NonBargaining Hourly Employees v. Whitehurst, 102
F.3d 1368, 1370, 1375 (5th Cir. 1996); Crawford v.
Roane, 53 F.3d 750, 756–57 (6th Cir. 1995); Preze v.
Bd. of Trustees, Pipefitters Welfare Fund Local 597, 5
F.3d 272, 274 (7th Cir. 1993).
None of Haynes’ contrary arguments are
persuasive. She preliminarily attempts to evade
liability by positing that Central States cannot force
her to reimburse it because she never saw the Plan
document. But, of course, she need not see the Plan
itself—most insured do not. An insurer fulfills its
duty of appraisal when it, for example, ensures
covered individuals receive the SPD by posting it
online and providing the link. See, e.g., Berumen,
2016 WL 6143188 at *3 (internal citation omitted).
Haynes “accepted the benefits and is bound by the
terms of the plan unless [Central States] prejudiced
[her] by its failure to disclose them.” AirTran
47

Airways, Inc. v. Elem, 767 F.3d 1192, 1200 (11th Cir.
2014), cert. granted, judgment vacated on other
grounds, 136 S. Ct. 979 (2016).
Notwithstanding any potentially prejudicial
nondisclosure, Haynes was on notice of Central
States’ intent to pursue reimbursement because it
sent her a letter— attaching an itemization of the
medical expenses it paid for her and the subrogation
section of the Plan—in January 2014. (Dkt. 110 ¶
11.) Moreover, she allowed Central States to pay
over $312,000 of her medical bills. Cf. Caesars
Entm’t Operating Co., Inc. on behalf of Harrahs
Operating Co., Inc. v. Johnson, No. 3:13-CV-00620CRS, 2015 WL 5020695, at *6 (W.D. Ky. Aug. 24,
2015) (taking benefits constitutes an agreement to
reimburse the plan from any third-party recovery).
So, Haynes knew of Central States’ lien and “cannot
avoid liability on a technicality.” Id. at 1201 (internal
citation omitted).

Haynes also makes much of the “third party” in
her “third-party beneficiary” status, as if that means
she is just a “third party” unrelated to this
transaction and occurrence. She cites Cent. States,
Se. & Sw. Areas Health & Welfare Fund v. Gerber
Life Ins. Co., 771 F.3d 150, 157 (2d Cir. 2014), and
Health Special Risk, Inc., 756 F.3d at 365
(illustrated earlier in this opinion), in support. Those
cases, however, are inapposite because they recognize
that they do not apply when “plan terms constitute[ ]
48

a contract between the parties involved in the . . .
dispute[ ] between the plan and one of its
beneficiaries.” Gerber Life Ins. Co., 771 F.3d at 156.
Haynes, an insured and plan beneficiary, cannot
seriously equate herself with Gerber, an additional
insurer standing in the same shoes as Central States.
Simply put, there is a world of difference between a
third-party provider and a third-party beneficiary.
Cf. Pennsylvania Chiropractic Ass’n v. Indep. Hosp.
Indem. Plan, Inc., 802 F.3d 926, 928 (7th Cir. 2015).
Having received medical benefits under the plan,
Haynes may not now “deny the corresponding
responsibilities and obligations that are clearly
imposed on [her] in the same document[.]” Gamboa,
479 F.3d at 545. To permit Haynes to deny her
responsibility to reimburse would allow her “to reap
the pure windfall here sought to the potential
prejudice of other beneficiaries.” Mathews v. Sears
Pension Plan, 144 F.3d 461, 469 (7th Cir. 1998). It is
a windfall because a covered dependent not bound to
this subrogation clause would recover both from the
insurer and the tortfeasor for the same injury. See
J.T. ex rel. Thode, 754 F. Supp. 2d at 1326.
In short, a third-party beneficiary cannot accept
the benefits of a contract while rejecting its burdens.
See id. The Fund must serve the best interests of all
covered Plan individuals, not just Haynes, so it was
right to seek to recover the benefits it paid to provide
for future participants who may find themselves in
unfortunate circumstances not unlike Haynes’s. See
Kress v. Food Employers Labor Relations Ass’n, 391
49

F.3d 563, 570–71 (4th Cir. 2004). In the end, the
Plan contractually binds Haynes under its
subrogation clause.
II.

DiCuccio and Law Firm as Defendants

Switching gears, the issue now becomes one of
remedy rather than right. That is, the Fund is
entitled to a refund, but questions remain regarding
the payer of the refund and its ultimate amount. The
Court focuses on those matters now, beginning with
whether Haynes’s counsel in the underlying medical
malpractice lawsuit (and his law firm) are proper
parties in this ERISA case. The defendants say no
because Central States did not agree to anything
with Haynes’s lawyers in the Plan. Central States
replies that DiCuccio and his firm possess the
settlement proceeds—which the Court has equity
jurisdiction to reach—making them appropriate
defendants.
ERISA, by its own terms, allows lawsuits against
nonplan defendants. See Harris Tr. & Sav. Bank v.
Salomon Smith Barney, Inc., 530 U.S. 238, 246 (2000)
(“§ 502(a)(3) admits of no limit . . . on the universe of
possible defendants.”); see also Teets v. Great-W. Life
& Annuity Ins. Co., 921 F.3d 1200, 1208 (10th Cir.
2019); Larson v. United Healthcare Ins. Co., 723 F.3d
905, 916 (7th Cir. 2013). It naturally flows from that
proposition that an individual attorney or law firm
that holds disputed settlement funds on behalf of a
plan participant or beneficiary need not be party to
the plan to be subject to suit under ERISA. See
50

Wells, 213 F.3d at 401; see also ACS Recovery Servs.,
Inc., 723 F.3d at 524–25 (illustrating and abrogating
in part on other grounds Bombardier Aerospace
Employee Welfare Benefits Plan v. Ferrer, Poirot &
Wansbrough, 354 F.3d 348, 352–53 (5th Cir. 2003));
Longaberger Co., 586 F.3d at 468 (holding that “there
is no statutory barrier that prevents [the plan
participant’s attorney] from being a defendant in a
suit brought pursuant to § 502(a)(3) of ERISA,
provided that the relief sought lies in equity.”).
Here, DiCuccio and his firm fit the mold: they
served as counsel for Haynes in the underlying
medical malpractice settlement and they still possess
the disputed funds on Haynes’s behalf. That makes
them amenable to suit under ERISA. For that
reason, Central States rightly named DiCuccio and
his firm as defendants in this
litigation.
III. Common Fund Doctrine and Issues with the
Lien Amount
Pivoting to the remaining remedial issues, all the
defendants’ contentions here pertain to calculating
the lien amount correctly. The defendants maintain
that Central States’ claim should be reduced based on
the: (1) common fund doctrine; (2) superiority of their
attorney’s fees lien; (3) effective date of the lien; and
(4) failure to adequately support the total amount of
the lien. One by one, the Court tackles each of these
challenges.
51

A.

Common Fund Doctrine

From the top, Haynes and her attorneys aver
that Central States’ claim should be reduced by the
“common fund doctrine,” meaning the proportionate
amount of Haynes’s attorney’s fees and expenses in
the underlying medical malpractice case. See
McCutchen, 569 U.S. at 96 (quoting Boeing Co. v. Van
Gemert, 444 U.S. 472, 478 (1980)); Wells, 213 F.3d at
401–02. Haynes “urges that this doctrine, which is
designed to prevent freeloading, enables [her] to pass
on a share of [her] lawyer’s fees to [Central States],
no matter what the plan provides.” McCutchen, 569
U.S. at 96.
An equity court, however has no “‘inherent
authority’ to apportion litigation costs in accord with
the ‘longstanding equitable common-fund doctrine,’
even if that conflicts with the parties’ contract.” Id.
at 99 (internal citation omitted). In no uncertain
terms, “the agreement governs[.]” Id. On cue, the
Court looks to the contract’s terms because the
“agreement itself becomes the measure of the parties’
equities; so if a contract abrogates the common-fund
doctrine, the insurer is not unjustly enriched by
claiming the benefit of its bargain.” Id. at 100.
Should the express contract term contradict the
background equitable rule, the agreement controls;
by contrast, if the plan provision leaves space (a
“contractual gap”) for the common-fund doctrine to
operate, then it shall operate because that doctrine
“provides the best indication of the parties’ intent . . .
in the absence of a contrary agreement.” Id. at 103–
52

04; see In re Sw. Airlines Voucher Litig., 898 F.3d
740, 746 (7th Cir. 2018) (internal citation omitted).
In this case, the Plan states: “The Fund’s
Subrogation Rights are not in any way subordinate to
or affected by any ‘common fund’ principle or factor . .
. the acceptance of plan benefits from the Fund
entirely subordinates the Loss Recovery Rights of the
Covered Individual to the Subrogation Rights of the
Fund (without any ‘common fund’ reduction . . .)”
(Dkt. 121 ¶ 9 (emphasis in original).) The plain
language of this Plan provision abrogates the
common-fund doctrine’s application to Haynes.
There is no contractual space or gap left for the
common fund doctrine to operate in. The agreement
governs.
The SPD is in accord.2 (Dkt. 121 ¶ 11 (“The Plan
is entitled to full reimbursement, from your
Much ink has been spilled over the defendants’ objection to
Central States’ “late” production of the SPD that was in effect at
the time of the settlement in the medical malpractice case.
(Dkt. 112 at 8 n.6; 120 at 5–6; 122; 124; 125.) The Court
overrules the objection principally because the issue is largely
moot seeing that there is no direct conflict between the
statements in any version of the SPD and the terms of the Plan.
To that end, no SPD controls the outcome of this litigation;
instead, it falls on the plain language of the Plan. It is also
worth noting that it was the defendants who requested the SPD
that was effective at settlement and the only potentially
relevant difference between the two versions is what headings
Central States organized the fees provisions (including the
common fund doctrine) under. To be clear, the attorney’s fees
provisions appeared in each SPD and the SPDs are otherwise
identical, so there was no ERISA disclosure violation. It is not
2

53

settlement or other recovery, of all of its benefit
payments for care and treatment of injuries. That
full reimbursement is not reduced by any attorneys’
fees or other costs you incur in obtaining your
settlement or other recovery.”).) Therefore, both the
Plan and SPD lay out the circumstances that may
result in Central States’ recovery of benefits by
subrogation.

Assuming for the sake of argument that the SPD
was silent on the issue of subrogation and the
attendant common fund doctrine, that does not estop
Central States from enforcing the Plan’s terms
because that only occurs when there is a direct
conflict between the SPD and the Plan. See
McCutchen, 569 U.S. at 92 n.1 (clarifying that the
SPD does not constitute the Plan’s terms); Mers v.
Marriott Int’l Grp. Accidental Death &
Dismemberment Plan, 144 F.3d 1014, 1023–24 (7th
Cir. 1998) (citing Herrmann v. Cencom Cable Assocs.,
Inc., 978 F.2d 978, 983 (7th Cir. 1992); then collecting
cases); Charter Canyon Treatment Ctr. v. Pool Co.,
153 F.3d 1132, 1136 (10th Cir. 1998) (collecting
cases).
The defendants failed to identify any conflict
between the Plan’s subrogation terms and the SPD’s
subrogation provisions. For good reason, too, because
at all hard to believe that, on first blush, counsel for Central
States did not notice this Scrivener’s error.

54

the two documents are in sync: both require the full
satisfaction of a subrogation lien without any
attorney’s fees reduction. That the SPD does not use
the term “common fund” is not enough to create a
conflict. In a nutshell, the contract rules here, and
the common-fund doctrine cannot override it.
B.

Attorney’s Fees Lien

Suffering the same fate as the common fund doctrine
is DiCuccio and his firm’s claim that their attorney’s
fees lien on the settlement proceeds is superior to the
Fund’s subrogation lien. As mentioned before, there
is no freestanding attorney’s fees exception to a
contract’s terms. See McCutchen, 569 U.S. at 100. A
court should not downgrade a plan’s lien on funds
recovered from third parties when the plan’s
language indicates that the lien has priority over
others. See Longaberger Co., 586 F.3d at 471–72
(citing Ward v. Wal-Mart Stores, Inc., 194 F.3d 1315,
*4 (6th Cir. 1999); then citing Isbell, 139 F.3d at
1072).
55

Here, the Plan provides that “[t]he Fund is
entitled to receive payment and reimbursement in
the full amount of the Fund’s Subrogation Rights
before the Covered Individual receives any Proceeds
in full or partial satisfaction of his/her Loss Recovery
Rights and before any fees or expenses are paid,
including attorneys’ fees.” (Dkt. 108 ¶ 9 (emphasis
added).) Given its most literal and natural reading,
the Plan requires full reimbursement of benefits paid.
That is another way of saying that the contract
establishes that the Fund’s subrogation lien is
superior to any other lien. The Court cannot deduct
attorney’s fees from the amount due to Central
States.
C.

Effective Date of the Lien

The defendants’ next theory of reduction is that
Central States’ subrogation lien arose on the date the
defendants received notice of the lien: January 13,
2014. The defendants apparently request a reduction
of the lien amount because they think Central States
delayed giving notice, and consequently it should not
recoup the benefits it paid prior to notice. Central
States believes the lien should not be reduced
because it had subrogation rights from the moment it
covered Haynes’s medical expenses and the
defendants were on notice of the lien with plenty of
time to spare. As a matter of law, an equitable lien
by agreement attaches to a settlement fund as soon
as that fund arises from the injuries requiring plan
payments. See Montanile, 136 S. Ct. at 556; Sereboff,
547 U.S. at 364–64 (quoting Barnes v. Alexander, 232
56

U.S. 117, 123 (1914)); see also ACS Recovery Servs.,
Inc., 723 F.3d at 526–27 (internal citation and
quotation omitted) (collecting cases); Funk v. CIGNA
Grp. Ins., 648 F.3d 182, 194 (3d Cir. 2011);
Longaberger, 586 F.3d at 466–67.

As a matter of fact, the Plan specifies that “[t]he
Fund, whenever it makes any payment for any
benefits on behalf of a Covered Individual or other
person related to any illness, injury or disability
(collectively and separately “Disability”) of the
person, is immediately subrogated and vested with
subrogation rights (“Subrogation Rights”) to all
present and future rights of recovery . . .” (Dkt. 108 ¶
4 (emphasis added).) Although the Plan gave the
Fund instant subrogation rights upon payment, those
rights did not vest (in the form of an equitable lien
attaching to the settlement fund) until the fund
arose.
Therefore, Central States had subrogation rights
from the time it paid Haynes’s medical benefits; the
defendants were aware of Central States’ lien since
early 2014; and Central States’ lien became effective
when the settlement fund arose. The Court rejects
the defendants’ request to reduce the lien amount
because of a delay.

57

D.

Adequate Support of the Total

Finally, the defendants claim that Central States
failed to support the total amount of its lien. Central
States counters that the evidence demonstrates that
it paid all the medical expenses incurred by Haynes.
It is common ground between the parties that
Central States paid some of the medical expenses
resulting from the injuries Haynes sustained during
her first surgery. (Dkt. 108 ¶¶ 14, 29, 32; Dkt. 110 ¶
2; Dkt. 113 ¶ 4.) The defendants’ purported
disagreement instead centers on what the exact
number is.
Central States justifies its lien amount with an
affidavit from an executive officer of the Fund with
knowledge of the payments. (Dkt. 98-1 ¶¶ 14–15.)
What is more, the defendants themselves represented
to a mediator in the underlying medical malpractice
case that Central States paid $320,000 of Shelby
Haynes’s medical bills. (Dkt. 108 ¶ 24; see id. ¶ 25.)
Substantiating this figure is a detailed spreadsheet—
prepared by Central States and delivered to DiCuccio
in the malpractice case—listing dates of service,
service providers, amounts charged by service
providers, and the amounts of those charges paid by
Central States. Id. ¶¶ 26–27.
The defendants merely state that Central States
needs to show more than they have shown to prove
that figure. But it is the defendants who failed to
rebut the evidence in the record that this number is
accurate. Their blanket assertion that Central States
58

needs to do more is not an adequate response under
either Federal or Local Rule 56. See Fed. R. Civ. P.
56(c)(1)–(2); L.R. 56.1(b)(3)(B). The defendants
needed to provide evidence that shows that
$312,286.50 is inaccurate and they neglected to do so.
CONCLUSION
All told, Haynes’s health insurance contract binds
her to its terms, so she must comply with its
subrogation provision and reimburse Central States
for the benefits it paid for her because the settlement
of her malpractice claim created an equitable
lien by agreement between the parties. The Court
accordingly grants Central States’ motion (Dkt. 96),
denies the defendants’ cross-motion (Dkt. 102), and
enters summary judgment for Central States in the
amount of its outstanding lien: $312,286.50. To
enforce that lien, the Court imposes a constructive
trust on the settlement fund held by DiCuccio and his
firm. After judgment, Central States may provide
evidence establishing the amount of interest on the
lien in addition to the amount of outstanding
attorney’s fees and costs under Local Rules 54.1 and
54.3.

59

____________________________________
Virginia M. Kendall
United States District Judge
Date: July 19, 2019

60

